DEPARTMENT OF THE ARMY
UNITED STATES ARMY LEGAL SERVICES AGENCY
DEFENSE APPELLATE DIVISION
9275 GUNSTON ROAD
FORT BELVOIR, VIRGINIA 22060-5546

August 16, 2019
Chief Justice John Roberts
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re: Petition for Writ of Certiorari, McDonald v. United States
The Honorable Chief Justice Roberts,
The petitioner, Private First Class Cedric L. McDonald, through undersigned
appellate counsel, respectfully requests that this Court enlarge the time to file his
petition for writ of certiorari pursuant to Rule 13.5.
The Court of Appeals for the Armed Forces (C.A.A.F.) issued its opinion on
April 17, 2019. Private McDonald timely filed his first petition for reconsideration,
which the C.A.A.F. denied on May 29, 2019. The case questions the applicable mens
rea to a routinely prosecuted offense under the Uniform Code of Military Justice. In
light of this Court’s intervening decision in United States v. Rehaif , 139 S. Ct. 2191
(2019), Private McDonald filed a second, out-of-time petition for reconsideration,
and a motion for leave to file the same, with the C.A.A.F. on July 26, 2019. The
C.A.A.F. has not yet granted or denied either pleading.
This Court has jurisdiction under 28 U.S.C. § 1259 (3). Pursuant to Rule 13.5,
Private McDonald respectfully requests that this Court extend the time to file a
petition for writ of certiorari by 60 days to October 26, 2019.
Attached to this letter is the required proof of service on the Solicitor General
and an Appendix containing both the opinion below and the court order denying
petitioner’s timely filed petition for reconsideration.
Please contact me if you have any questions concerning this matter at
zachary.a.gray8.mil@mail.mil or (703) 693-0648.
Sincerely,

Zachary A. Gray
Captain, Judge Advocate
Appellate Defense Counsel

